No. 19-764

 

In THE

Supreme Court of the Anited States

MARK SOKOLOW, et al.,
Petitioners,
v.

PALESTINE LIBERATION ORGANIZATION AND PALESTINIAN
AUTHORITY, A/K/A THE PALESTINIAN INTERIM SELF-
GOVERNMENT AUTHORITY AND OR PALESTINIAN COUNCIL
AND OR PALESTINIAN NATIONAL AUTHORITY,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,192 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 13, 2020.

 

Colin Casey a

Wilson-Epes Printing Co., Inc.
